GR-80-98-032
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Hurricane Police Department
Hurricane, Utah
 
GR-80-98-032
 
August 28, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Hurricane Police Department, Hurricane, Utah. The
Hurricane Police Department received a grant of $66,555 to hire or rehire one sworn police
officer under the Funding Accelerated for Smaller Towns (FAST) program, and $150,000 to
hire or rehire two police officers under a Universal Hiring Program (UHP) supplement. The
purpose of the additional officers is to enhance community policing efforts.
Budgeted funds for police services and the number of officers budgeted increased each
year since FY 1994, the year before the initial grant was awarded. Funds provided under
this grant and the UHP supplement were used to enhance the Hurricane Police Department's
community policing efforts. The number of officers performing community policing
activities increased by the number of officers funded under these grants.
However, we found the following weaknesses with regard to meeting the grant conditions:


- Budgeted amounts, rather than actual, were used when preparing Requests for
    Reimbursement and Financial Status Reports, resulting in an understatement in cumulative
    total program outlays of $15,327.
- Federal share of outlays reported on the Financial Status Reports did not reconcile
    with the amount of reimbursements requested, resulting in an understatement of $4,582.
- Several Financial Status Reports were not submitted timely.


#####